      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                       Washington, D.C. 20201




August 25, 2010

TO:           Yvette Sanchez Fuentes
              Director, Office of Head Start
              Administration for Children and Families


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of North Coast Opportunities, Inc.’s Compliance With Health and Safety
              Regulations for Head Start Programs (A-09-10-01008)


Attached, for your information, is an advance copy of our final report on North Coast
Opportunities, Inc.’s (the Grantee) compliance with Head Start health and safety regulations.
We will issue this report to the Grantee within 5 business days. The Administration for Children
and Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-10-01008.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



August 30, 2010

Report Number: A-09-10-01008

Ms. Corrine Lindgren
Head Start Director
North Coast Opportunities, Inc.
550 North State Street
Ukiah, CA 95482

Dear Ms. Lindgren:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of North Coast Opportunities, Inc.’s Compliance
With Health and Safety Regulations for Head Start Programs. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact Jim Kenny, Audit Manager, at (415) 437-8370 or through email at
James.Kenny@oig.hhs.gov. Please refer to report number A-09-10-01008 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Corrine Lindgren


Direct Reply to HHS Action Official:

Ms. Jan Len
Regional Program Manager
Administration for Children and Families
Office of Head Start
90 Seventh Street, Ninth Floor
San Francisco, CA 94103
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




    REVIEW OF NORTH COAST
OPPORTUNITIES, INC.’S COMPLIANCE
   WITH HEALTH AND SAFETY
       REGULATIONS FOR
     HEAD START PROGRAMS




                       Daniel R. Levinson
                        Inspector General

                          August 2010
                         A-09-10-01008
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

North Coast Opportunities, Inc. (the Grantee), provides Head Start services to children from birth
to 5 years of age and their families through a comprehensive childcare program at 13 facilities in
Mendocino and Lake Counties, California. For program year July 1, 2009, through June 30, 2010,
OHS awarded approximately $4.88 million in Federal Head Start funds to the Grantee to provide
services to 420 children. In 2009, the Grantee was also awarded $453,149 in Recovery Act
funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements for ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee generally complied with Federal and State requirements for ensuring the health and
safety of children in its care. However, the Grantee did not fully comply with Federal and State
requirements in the following areas:

   •   The Grantee did not obtain criminal record checks or signed statements regarding
       criminal history for 10 of its 159 employees. The Grantee obtained criminal record
       checks and signed criminal record statements for the 149 remaining employees.
       However, the Grantee did not obtain criminal record checks on six of these employees
       until after they were hired. In addition, the files on four other employees did not contain
       the required documentation of criminal record clearances.

   •   The Grantee’s 13 childcare facilities did not meet all Federal Head Start and State
       requirements for protecting children from unsafe materials and equipment. In addition,
       two of these facilities did not provide a fully secure environment for the children in their
       care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow its existing procedures to ensure that it complied with Federal and State
health and safety requirements. The Grantee’s failure to consistently comply with these
requirements jeopardized the health and safety of children in its care.




                                                 i
RECOMMENDATIONS

We recommend that the Grantee strengthen and consistently follow its existing procedures to
ensure that:

   •   criminal record checks are obtained before hiring employees and all employee files
       contain (1) documentation of criminal record clearances or exemptions and
       (2) employee-signed statements regarding criminal history and

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       other unsafe conditions are addressed, and all facilities are secure.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Grantee described its completed and ongoing
actions to address the deficiencies that we identified. However, regarding our findings that the
faucets in children’s bathrooms at five facilities did not deliver hot water, the Grantee stated that
the California Code of Regulations does not require that hand-washing fixtures deliver hot water.
The Grantee’s comments are included in their entirety as Appendix B.

After reviewing the Grantee’s comments and the California Code of Regulations, we removed
the findings related to bathroom faucets.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Federal Head Start Program ...............................................................................1
              Federal and State Requirements for Head Start Grantees ..................................1
              North Coast Opportunities, Inc. .........................................................................1
              Office of Inspector General Audits ....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATIONS ..........................................................................3

          CRIMINAL RECORD CHECKS ..................................................................................3
               Federal and State Requirements.........................................................................3
               Grantee’s Compliance With Federal and State Requirements ...........................4

          MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY................5
              Federal and State Requirements.........................................................................5
              Grantee’s Compliance With Federal and State Requirements ...........................6

          RECOMMENDATIONS ...............................................................................................10

          GRANTEE COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................10

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY
              AND FACILITY SECURITY REQUIREMENTS

          B: GRANTEE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Requirements for Head Start Grantees

Pursuant to Federal Head Start requirements (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
requirements also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing requirements. Pursuant to
45 CFR § 1306.30(c), if State and local licensing standards are less stringent than the Head Start
requirements or if no State licensing standards are applicable, grantees must ensure that their
facilities comply with the Head Start Program Performance Standards related to health and
safety.

In California, childcare centers must comply with Title 22, division 12, chapter 1, of the
California Code of Regulations (CCR). Pursuant to CCR § 101156(a), unless a childcare
arrangement is exempt from licensure as specified in § 101158, no adult, general partners of a
partnership, controlling partners in a limited liability corporation, corporation, county, city,
public agency, or other governmental entity may operate, establish, manage, conduct, or provide
care and supervision without a valid license from the Department of Social Services (the
Department).

North Coast Opportunities, Inc.

North Coast Opportunities, Inc. (the Grantee), a private, nonprofit community action agency,
provides services to address the needs of low-income residents of Mendocino and Lake Counties,

                                                1
California. The Grantee provides Head Start services to children from birth to 5 years of age and
their families through a comprehensive program at 13 State-licensed facilities: Fort Bragg,
Lakeport, Low Gap, Meadowbrook, Nokomis, North Ukiah, Orchard, Pearl, South Ukiah, Upper
Lake I, Upper Lake Full Day, Willits Head Start, and Willits Early Head Start. The Grantee has
received Head Start funding since 1967.

For program year July 1, 2009, through June 30, 2010, OHS awarded approximately
$4.88 million in Federal Head Start funds to the Grantee to provide services to 420 children. In
2009, the Grantee was also awarded $453,149 in Recovery Act funding.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements for ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and facilities as of April 2010. To gain an
understanding of the Grantee’s operations, we conducted a limited review of the Grantee’s
internal controls as they related to our audit objective.

We performed our fieldwork from March 29 through April 9, 2010, at the Grantee’s
administrative offices in Ukiah, California, and at its 13 childcare facilities in Mendocino and
Lake Counties, California.

Methodology

To accomplish our objective, we:

   •    selected the Grantee based on prior risk analyses and discussions with ACF officials;

   •    reviewed Federal and State laws, regulations, and policies related to Federal grant awards
        and the Head Start program;

   •    interviewed the Grantee’s officials and employees;

   •    reviewed the Grantee’s Head Start grant applications and current grant award documents;


                                                 2
    •   reviewed the Grantee’s files on all 159 current Head Start employees; 1

    •   reviewed the Grantee’s licenses and documentation of fire inspections;

    •   visited the Grantee’s 13 childcare facilities; and

    •   discussed our preliminary findings with Grantee and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The Grantee generally complied with Federal and State requirements for ensuring the health and
safety of children in its care. However, the Grantee did not fully comply with Federal and State
requirements in the following areas:

    •   The Grantee did not obtain criminal record checks or signed statements regarding
        criminal history for 10 of its 159 employees. The Grantee obtained criminal record
        checks and signed criminal record statements for the 149 remaining employees.
        However, the Grantee did not obtain criminal record checks on six of these employees
        until after they were hired. In addition, the files on four other employees did not contain
        the required documentation of criminal record clearances.

    •   The Grantee’s 13 childcare facilities did not meet all Federal Head Start and State
        requirements for protecting children from unsafe materials and equipment. In addition,
        two of these facilities did not provide a fully secure environment for the children in their
        care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow its existing procedures to ensure that it complied with Federal and State
health and safety requirements. The Grantee’s failure to consistently comply with these
requirements jeopardized the health and safety of children in its care.

CRIMINAL RECORD CHECKS

Federal and State Requirements

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843A(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,

1
 Of the total, 148 employees were partially or fully funded by the Head Start grant award, and 11 employees were
paid through the indirect cost pool.

                                                        3
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

Section 101170(a) of the CCR states that the Department must conduct a criminal record review
of all persons specified in the Health and Safety Code, section 1596.871(b), including the
applicant; adults responsible for administration or direct supervision of staff; any person, other
than a child, residing in the facility; any person who provides care and supervision to children;
and any staff person, volunteer, or employee who has contact with children. Section 101170(e)
of the CCR states that all individuals subject to a criminal record review must, before working,
residing, or volunteering in a licensed facility, obtain a California clearance or a criminal record
exemption as required by the Department.

Section 101170(d) of the CCR states that any individual subject to a criminal record review must
sign a Criminal Record Statement declaring whether he or she has been convicted of a crime,
other than a minor traffic violation, regardless of whether the individual was granted a pardon for
the conviction, the individual received expungement, or the individual’s record was sealed as a
result of a court order.

Section 101217(a) of the CCR states that the personnel record for each employee must contain,
among other things, (1) documentation of a criminal record clearance or a criminal record
exemption as required by CCR § 101170(e) and (2) a signed statement regarding the employee’s
criminal record history as required by CCR § 101170(d).

Grantee’s Compliance With Federal and State Requirements

The Grantee did not obtain criminal record checks or signed criminal record statements for
10 of its administrative employees. The office for these employees was located approximately
0.8 mile from the nearest childcare facility.

Although the Grantee obtained criminal record checks on the 149 remaining employees, the
Grantee did not obtain the checks on 6 employees (3 program assistants, 1 facilities manager, 1
accountant, and 1 executive assistant) until after they were hired. The office for these employees
was located approximately 0.8 mile from the nearest childcare facility. According to Grantee
officials, only the facilities manager was required to visit childcare centers, and no visit was
made until the clearance was obtained.

In addition, the files on four other employees did not contain the required documentation of
criminal record clearances. We confirmed that the Grantee had obtained the required criminal
record clearances for these employees.

These deficiencies occurred because the Grantee did not have adequate procedures to ensure that
it complied with Federal and State requirements. By not ensuring that it complied with all
employment requirements for employees who supervised or had routine unsupervised contact
with children, the Grantee potentially jeopardized the safety of children in its care.

                                                  4
MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY

Federal and State Requirements

Pursuant to Federal Head Start requirements (45 CFR § 1304.53(a)(7)), grantees must provide
for the maintenance, repair, safety, and security of all Head Start facilities, materials, and
equipment. Pursuant to 45 CFR § 1304.53(a), among other requirements, grantees must ensure
that:

   •   each facility has at least 35 square feet of usable indoor space per child available for the
       care and use of children that is exclusive of bathrooms, hallways, kitchens, staff rooms,
       and storage places;

   •   an appropriate number of smoke detectors are installed and tested regularly;

   •   electrical outlets accessible to children have child-resistant covers, child-protection
       outlets, or safety plugs to prevent shock; and

   •   indoor and outdoor premises are cleaned daily and kept free of undesirable and hazardous
       materials and conditions.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or less stringent than Head Start regulations or if no State or local licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety.

The CCR specifies that childcare centers must protect children from unsafe materials and
equipment by, among other actions:

   •   maintaining a current edition of a first aid manual (CCR § 101226(d)(1));

   •   maintaining the center in good repair at all times (CCR § 101238(a));

   •   taking measures to keep the center free of flies, other insects, and rodents
       (CCR § 101238(a)(1));

   •   storing disinfectants, cleaning solutions, poisons, and other items that could pose a
       danger to children in a location inaccessible to children (CCR § 101238(g));

   •   ensuring that any construction or equipment that could pose a hazard in an outdoor
       activity area is inaccessible to children (CCR § 101238.2(h));

   •   ensuring that floors of all rooms have safe and clean surfaces (CCR § 101238.3(b));



                                                 5
   •   storing combustibles, cleaning equipment, and cleaning agents in a locked cabinet
       separate from food or in a location inaccessible to children (CCR § 101238.4(d));

   •   maintaining furniture and equipment in good condition and free of sharp, loose, or
       pointed parts (CCR § 101239(n)); and

   •   arranging furniture and equipment, including cots and mats used for napping, so that no
       exit is blocked (CCR § 101239(p)).

Section 101238.2(g) of the CCR requires that the playground be enclosed by a fence at least
4 feet high to protect children and to keep them in the outdoor activity area. Section
101238.2(g)(1) of the CCR states that the fence should prevent children from leaving the outdoor
activity area unnoticed but not itself present a hazard.

Grantee’s Compliance With Federal and State Requirements

The Grantee’s 13 childcare facilities did not meet all Federal Head Start and State health and
safety requirements for protecting children from unsafe materials and equipment. In addition,
two of these facilities did not provide a fully secure environment for the children in their care.
We noted the following deficiencies at the Grantee’s facilities, and we discussed the deficiencies
with the site supervisors on duty during our visits. In some instances, the site supervisors took
immediate steps to address our concerns.

Orchard (visited March 29 and April 2, 2010)

   •   Wood glue and dishwashing detergent were stored in cabinets within children’s reach
       (Appendix A, Photograph 1).

   •   Electrical outlets in a classroom lacked protective caps.

   •   The facility did not maintain a first aid manual.

   •   A door leading from the playground to a storage room was unlocked, allowing children
       access to potentially hazardous materials and equipment (e.g., a water heater, dollies, and
       cleaning supplies) (Appendix A, Photograph 2).

Meadowbrook (visited March 30, 2010)

   •   The facility did not maintain a first aid manual.

Pearl (visited March 30, 2010)

   •   The facility did not maintain a first aid manual.




                                                 6
Upper Lake I (visited March 30 and 31, 2010)

   •   Electrical outlets in a classroom lacked protective caps.

   •   The facility did not maintain a first aid manual.

Upper Lake Full Day (visited March 30, 2010)

   •   Electrical outlets in a classroom lacked protective caps.

   •   The facility did not maintain a first aid manual.

Lakeport (visited March 31, 2010)

   •   Electrical outlets in a classroom lacked protective caps.

   •   The facility did not maintain a first aid manual.

North Ukiah (visited March 31, 2010)

   •   The facility did not maintain a first aid manual.

South Ukiah (visited March 31, 2010)

   •   Electrical outlets in a classroom lacked protective caps.

   •   The facility did not maintain a first aid manual.

   •   A chain-link fence on steps leading to the outdoor play area was not properly fastened to
       the top railing (Appendix A, Photograph 3).

Nokomis (visited March 31 and April 8, 2010)

   •   Doors leading to an unsupervised teachers’ office and storage closet were unlocked,
       allowing children access to storage shelves filled with teaching supplies and other items
       that could pose a danger (Appendix A, Photograph 4).

   •   Toys and children’s furniture blocked an emergency exit (Appendix A, Photograph 5).

   •   The facility’s first aid manual was 14 years old.




                                                 7
Willits Head Start (visited April 1 and 8, 2010)

   •   A door leading to an adult bathroom was unlocked, allowing children access to
       unsanitary and potentially hazardous materials and equipment (e.g., a vacuum, mop, and
       bucket containing dirty water) (Appendix A, Photograph 6).

   •   An electrical outlet in a classroom lacked a protective cap.

   •   The facility did not maintain a first aid manual.

   •   A gate leading from the playground to an unsupervised area was improperly secured
       (Appendix A, Photograph 7). The gate latch was within children’s reach.

           o Next to the improperly secured gate was a 5-inch gap that a child could fit
             through (Appendix A, Photograph 8).

           o Approximately 10 feet beyond the improperly secured gate was a 16-inch-deep
             water-filled hole, presenting a tripping hazard (Appendix A, Photograph 9). The
             hole was located in an area accessible to children.

           o Beyond the improperly secured gate were other open gates that led to an
             unsupervised field (Appendix A, Photograph 10).

   •   A chain-link fence on one part of the playground was not properly fastened to the
       fencepost, creating a 10-inch gap that led to the water-filled hole and the unsupervised
       field mentioned in the two preceding bullets (Appendix A, Photograph 11).

   •   Metal supports under a wooden ramp were rusty and sharp, posing a danger to children.

   •   A wooden portion of a concrete play tunnel on the playground had mold and peeling
       paint (Appendix A, Photograph 12).

Willits Early Head Start (visited April 1 and 8, 2010)

   •   The facility did not maintain a first aid manual.

   •   An electrical outlet in a classroom lacked a protective cap.

Fort Bragg (visited April 1, 2010)

   •   The classroom floor was dirty, and there were trails of ants on the classroom wall
       (Appendix A, Photograph 13).

   •   A mop was hung to dry on the top half of the kitchen door, which was propped open with
       a silverware holder, creating a potential for dirty water from the mop to drip onto the
       silverware (Appendix A, Photograph 14).

                                                   8
   •   Another mop was hung to dry on wall pegs, which also had a jacket, first aid waist pack,
       and apron hanging on them. The mop was stored over a rolling shelving unit containing
       children’s clothes. The placement of the mop created a potential for dirty water to drip
       onto the other items (Appendix A, Photograph 15).

   •   Adult-sized toilets in the children’s bathroom did not have child-sized toilet seat adapters
       (Appendix A, Photograph 16).

   •   A cabinet accessible to children contained dishwashing detergent (Appendix A,
       Photograph 17).

   •   A smoke detector in the hallway was not functioning (Appendix A, Photograph 18).

   •   The facility’s first aid manual was 17 years old.

   •   A storage shed adjacent to the main walkway on the playground had splintered wood on
       the lower portion of the walls (Appendix A, Photograph 19).

   •   A wooden portion of a concrete play tunnel on the playground had peeling paint
       (Appendix A, Photograph 20).

   •   A gate on a ramp leading to a parking lot was not adequately secured. The gate latch was
       within children’s reach.

   •   Two gates that led from the playground to an unsupervised field and open area, which
       were accessible to the public, were not adequately secured. The gates’ latches were
       within children’s reach. One gate also had a 6-inch gap that a child could fit through
       (Appendix A, Photograph 21).

   •   The playground had deep holes, presenting tripping hazards (Appendix A, Photograph
       22).

Low Gap (visited April 2, 2010)

   •   The facility did not maintain a first aid manual.

   •   An unfastened fire extinguisher in an unlocked wall-mounted case was within children’s
       reach (Appendix A, Photograph 23).

   •   A wall-mounted case that contained the central telephone wiring system was unlocked
       and within children’s reach (Appendix A, Photograph 24).

   •   A storage shed on the playground was unlocked (Appendix A, Photograph 25).

These deficiencies occurred because the Grantee did not consistently follow its existing
procedures to ensure that it complied with Federal and State health and safety requirements. By
                                                 9
not ensuring that all facilities were kept free from unsafe materials and equipment and that all
facilities were secure, the Grantee jeopardized the health and safety of children in its care.

RECOMMENDATIONS

We recommend that the Grantee strengthen and consistently follow its existing procedures to
ensure that:

   •   criminal record checks are obtained before hiring employees and all employee files
       contain (1) documentation of criminal record clearances or exemptions and
       (2) employee-signed statements regarding criminal history and

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       other unsafe conditions are addressed, and all facilities are secure.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Grantee described its completed and ongoing
actions to address the deficiencies that we identified. However, regarding our findings that the
faucets in children’s bathrooms at five facilities did not deliver hot water, the Grantee stated that
CCR § 101239(e) does not require that hand-washing fixtures deliver hot water. The Grantee’s
comments are included in their entirety as Appendix B.

After reviewing the Grantee’s comments and the CCR, we removed the findings related to
bathroom faucets.




                                                 10
APPENDIXES
                                                                    Page 1 of 13


      APPENDIX A: LACK OF COMPLIANCE WITH
       MATERIAL AND EQUIPMENT SAFETY AND
        FACILITY SECURITY REQUIREMENTS




Photograph 1 – Taken at Orchard on 3/29/10 showing wood
glue stored in a cabinet within children’s reach.




Photograph 2 – Taken at Orchard on 4/2/10 showing potentially
hazardous materials and equipment (e.g., a water heater, dollies,
and cleaning supplies) in a storage room accessible from the
playground through an unlocked door.
                                                                   Page 2 of 13




Photograph 3 – Taken at South Ukiah on 3/31/10 showing a
chain-link fence on steps leading to the outdoor play area that
was not properly fastened to the top railing.




Photograph 4 – Taken at Nokomis on 4/8/10 showing a storage
closet and shelves filled with teaching supplies and other items
that could pose a danger.
                                                               Page 3 of 13




Photograph 5 – Taken at Nokomis on 4/8/10 showing toys and
children’s furniture blocking an emergency exit.




Photograph 6 – Taken at Willits Head Start on 4/1/10 showing
an unlocked adult bathroom, which allowed children access to
unsanitary and potentially hazardous materials and equipment
(e.g., a vacuum, mop, and bucket containing dirty water).
                                                                 Page 4 of 13




Photograph 7 – Taken at Willits Head Start on 4/1/10 showing
an improperly secured gate that led from the playground to an
unsupervised area. The gate latch was within children’s reach.




Photograph 8 – Taken at Willits Head Start on 4/1/10 showing a
5-inch gap next to the improperly secured gate shown in
Photograph 7.
                                                                 Page 5 of 13




Photograph 9 – Taken at Willits Head Start on 4/1/10 showing
a 16-inch-deep water-filled hole, which was a tripping hazard.
The hole was located in an area accessible to children,
approximately 10 feet beyond the improperly secured gate
shown in Photograph 7.




Photograph 10 – Taken at Willits Head Start on 4/1/10 showing
an open gate that led to an unsupervised field.
                                                                   Page 6 of 13




Photograph 11 – Taken at Willits Head Start on 4/1/10 showing
a chain-link fence on one part of the playground that was not
properly fastened to the fencepost, creating a 10-inch gap that
led to the water-filled hole and the unsupervised field shown in
Photographs 9 and 10.




Photograph 12 – Taken at Willits Head Start on 4/1/10 showing
mold and peeling paint on the wooden portion of a concrete
play tunnel on the playground.
                                                                   Page 7 of 13




Photograph 13 – Taken at Fort Bragg on 4/1/10 showing a trail of
ants on the classroom wall.




Photograph 14 – Taken at Fort Bragg on 4/1/10 showing a mop
that was hung to dry on the top half of the kitchen door. The
door was propped open with a silverware holder.
                                                                     Page 8 of 13




Photograph 15 – Taken at Fort Bragg on 4/1/10 showing a mop
hung to dry on wall pegs, which also had a jacket, first aid waist
pack, and apron hanging on them. The mop was stored over a
rolling shelving unit containing children’s clothes.




Photograph 16 – Taken at Fort Bragg on 4/1/10 showing
adult-sized toilets in the children’s bathroom that did not have
child-sized toilet seat adapters.
                                                            Page 9 of 13




Photograph 17 – Taken at Fort Bragg on 4/1/10 showing a
cabinet containing dishwashing detergent. The cabinet was
accessible to children.




Photograph 18 – Taken at Fort Bragg on 4/1/10 showing a
nonfunctioning smoke detector in the hallway.
                                                                   Page 10 of 13




Photograph 19 – Taken at Fort Bragg on 4/1/10 showing a
storage shed with splintered wood on the playground.




Photograph 20 – Taken at Fort Bragg on 4/1/10 showing
peeling paint on the wooden portion of a concrete play tunnel on
the playground.
                                                                   Page 11 of 13




Photograph 21 – Taken at Fort Bragg on 4/1/10 showing an
unlocked gate on the playground, which led to an unsupervised
field. The gate latch was within children’s reach. The gate also
had a 6-inch gap that a child could fit through.




Photograph 22 – Taken at Fort Bragg on 4/1/10 showing deep
holes on the playground, which were tripping hazards.
                                                                Page 12 of 13




Photograph 23 – Taken at Low Gap on 4/2/10 showing an
unfastened fire extinguisher in an unlocked wall-mounted case
within children’s reach.




Photograph 24 – Taken at Low Gap on 4/2/10 showing the
central telephone wiring system in an unlocked wall-mounted
case within children’s reach.
                                                        Page 13 of 13




Photograph 25 – Taken at Low Gap on 4/2/10 showing an
unlocked storage shed on the playground.
                                                                                                 Page 1 of 9


                             APPENDIX B: GRANTEE COMMENTS




August 6, 2010

Lori A. Ahlstrand
Office of Audit Services – Region IX
90 – 7th Street, Suite 3-650
San Francisco, CA 94103

Dear Ms. Ahlstrand,

Attached you will find the NCO response to the draft audit report conducted in April 2010. Please feel free to
call me if you have any questions.

Sincerely,

/Corrine Lindgren/
HSCDP Director
                                                                                         Page 2 of 9


Grantee’s Compliance With Federal and State Requirements

Human Resources

• The Grantee did not obtain criminal record checks or signed statements regarding
criminal history for 10 of its 159 employees. The Grantee obtained criminal record
checks and signed criminal record statements for the 149 remaining employees.
However, the Grantee did not obtain criminal record checks on six of these employees
until after they were hired. In addition, the files on four other employees did not contain
the required documentation of criminal record clearances.

In the future new Head Start/EHS staff will not be hired until criminal record checks are
completed and criminal record statements are signed. All required documentation of criminal
record clearances are now in place for all Head Start/EHS program staff.

Orchard (visited March 29 and April 2, 2010)

• Wood glue and dishwashing detergent were stored in cabinets within children’s reach
(Appendix, Photograph 1)

Wood glue and dishwashing detergent are now stored in cabinets inaccessible to children.

• Electrical outlets in a classroom lacked protective caps.

Sliding outlet covers are in the process of being installed at all Head Start/EHS sites. This will
be complete by September 1st, the first day of class for the new school year.

• The facility did not maintain a first aid manual.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

• A door leading from the playground to a storage room was unlocked, allowing children
access to potentially hazardous materials and equipment (e.g., a water heater, dollies, and
cleaning supplies) (Appendix, Photograph 2).

 The door in question is now locked from the outside. The interior panic bar is operative from
the inside as required by law.

Meadowbrook (visited March 30, 2010)
• The facility did not maintain a first aid manual.
                                                                                         Page 3 of 9


Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

Pearl (visited March 30, 2010)

• The facility did not maintain a first aid manual.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

Upper Lake I (visited March 30 and 31, 2010)
• Faucets in the children’s bathroom did not deliver hot water.

Please check CCR 101239(e)(3). It states, “Notwithstanding (e) and (e)(1) above, hand washing
fixtures shall not be required to deliver hot water”.

• Electrical outlets in a classroom lacked protective caps.

Sliding outlet covers are in the process of being installed at all Head Start/EHS sites. This will
be complete by September 1st, the first day of class for the new school year.

• The facility did not maintain a first aid manual.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

Upper Lake Full Day (visited March 30, 2010)
• Electrical outlets in a classroom lacked protective caps.

Sliding outlet covers are in the process of being installed at all Head Start/EHS sites. This will
be complete by September 1st, the first day of class for the new school year.

• The facility did not maintain a first aid manual.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

Lakeport (visited March 31, 2010)
                                                                                         Page 4 of 9


• Electrical outlets in a classroom lacked protective caps.

Sliding outlet covers are in the process of being installed at all Head Start/EHS sites. This will
be complete by September 1st, the first day of class for the new school year.

• The facility did not maintain a first aid manual.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

North Ukiah (visited March 31, 2010)

• The facility did not maintain a first aid manual.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

South Ukiah (visited March 31, 2010)

• Faucets in the children’s bathroom did not deliver hot water.

Please check CCR 101239(e)(3). It states, “Notwithstanding (e) and (e)(1) above, hand washing
fixtures shall not be required to deliver hot water”.

• Electrical outlets in a classroom lacked protective caps.

Sliding outlet covers are in the process of being installed at all Head Start/EHS sites. This will
be complete by September 1st, the first day of class for the new school year.

• The facility did not maintain a first aid manual.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

• A chain-link fence on steps leading to the outdoor play area was not properly fastened to
the top railing (Appendix, Photograph 3).

New fasteners are in place.

Nokomis (visited March 31 and April 8, 2010)
• Doors leading to an unsupervised teachers’ office and storage closet were unlocked,
allowing children access to storage shelves filled with teaching supplies and other items
                                                                                         Page 5 of 9


that could pose a danger (Appendix, Photograph 4).

Teachers have been instructed to keep their office doors locked when children are present in the
building.

• Toys and children’s furniture blocked an emergency exit (Appendix, Photograph 5).

Staff have been instructed to keep all doorways clear. This will be monitored daily by each site
supervisor.

• Faucets in children’s bathrooms did not deliver hot water.

Please check CCR 101239(e)(3). It states, “Notwithstanding (e) and (e)(1) above, hand washing
fixtures shall not be required to deliver hot water”.

• The facility’s first aid manual was 14 years old.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

Willits Head Start (visited April 1 and 8, 2010)
• A door leading to an adult bathroom was unlocked, allowing children access to
unsanitary and potentially hazardous materials and equipment (e.g., a vacuum, mop, and
bucket containing dirty water) (Appendix, Photograph 6).

A lock will be installed on the outside of the adult bathroom door and kepted locked when
children are present in the building.

• Faucets in the children’s bathroom did not deliver hot water.

Please check CCR 101239(e)(3). It states, “Notwithstanding (e) and (e)(1) above, hand washing
fixtures shall not be required to deliver hot water”.

• An electrical outlet in a classroom lacked a protective cap.

Sliding outlet covers are in the process of being installed at all Head Start/EHS sites. This will
be complete by September 1st, the first day of class for the new school year.

• The facility did not maintain a first aid manual.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.
                                                                                       Page 6 of 9


• A gate leading from the playground to an unsupervised area was improperly secured
(Appendix, Photograph 7). The gate latch was within children’s reach.

A new 6 foot high gate has been installed with latch at the 5 foot height. Padlocked

       o Next to the improperly secured gate was a 5-inch gap that a child could fit
       through (Appendix, Photograph 8).

       A new 6 foot high gate has been installed with latch at the 5 foot height. Padlocked

       o Approximately 10 feet beyond the improperly secured gate was a 16-inch-deep
       water-filled hole, presenting a tripping hazard (Appendix, Photograph 9). The
       hole was located in an area accessible to children.

       The gap has been filled. A concrete cover has been put in place over valve to eliminate
       hole.

       o Beyond the improperly secured gate were other open gates that led to an
       unsupervised field (Appendix, Photograph 10).

       The gate has been secured with lock.

• A chain-link fence on one part of the playground was not properly fastened to the
fencepost, creating a 10-inch gap that led to the water-filled hole and the unsupervised
field mentioned in the two preceding bullets (Appendix, Photograph 11).

The gap has been secured.

• Metal supports under a wooden ramp were rusty and sharp, posing a danger to children.

The wooden ramp has been replaced with concrete ramp and deck.

• A wooden portion of a concrete play tunnel on the playground had mold and peeling
paint (Appendix, Photograph 12).

The mold killed and the wood has been sanded and painted.

Willits Early Head Start (visited April 1 and 8, 2010)

• Faucets in children’s bathrooms did not deliver hot water.

Please check CCR 101239(e)(3). It states, “Notwithstanding (e) and (e)(1) above, hand washing
fixtures shall not be required to deliver hot water”.

• The facility did not maintain a first aid manual.
                                                                                         Page 7 of 9


Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

• An electrical outlet in a classroom lacked a protective cap.

Sliding outlet covers are in the process of being installed at all Head Start/EHS sites. This will
be complete by September 1st, the first day of class for the new school year.

Fort Bragg (visited April 1, 2010)
• The classroom floor was dirty, and there were trails of ants on the classroom wall
(Appendix, Photograph 13).

Program Improvement Funds were used this summer to install new flooring throughout the
facility. These funds were awarded earlier in the year but couldn’t be installed until classes
ended and children were no longer at the site.

The site was treated for ants over the summer when children were not present.

• A mop was hung to dry on the top half of the kitchen door, which was propped open with
a silverware holder, creating a potential for dirty water from the mop to drip onto the
silverware (Appendix, Photograph 14).

Staff have been instructed to remove the mop from the classroom and to hang it in the adult
bathroom or another location that is inaccessible to children. This will be monitored daily by the
site supervisor.

• Another mop was hung to dry on wall pegs, which also had a jacket, first aid waist pack,
and apron hanging on them. The mop was stored over a rolling shelving unit containing
children’s clothes. The placement of the mop created a potential for dirty water to drip
onto the other items (Appendix, Photograph 15).

Staff have been instructed to remove the mop from the classroom and to hang it in the adult
bathroom or another location that is inaccessible to children. This will be monitored daily by the
site supervisor.

• Adult-sized toilets in the children’s bathroom did not have child-sized toilet seat adapters
(Appendix, Photograph 16).

The toilet seat adapters have been ordered and will be in place next week

• A cabinet accessible to children contained dishwashing detergent (Appendix, Photograph
17).
                                                                                        Page 8 of 9


Dishwashing detergent has been stored in a cabinet that is inaccessible to children. Site
supervisor to monitor daily.

• A smoke detector in the hallway was not functioning (Appendix, Photograph 18).

The site supervisor changed the battery in the smoke detector prior to the end of the audit.
Batteries in all smoke detectors are checked and replaced twice yearly.

• The facility’s first aid manual was 17 years old.

Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

• A storage shed adjacent to the main walkway on the playground had splintered wood on
the lower portion of the walls (Appendix, Photograph 19).

This shed has been sanded and painted.

• A wooden portion of a concrete play tunnel on the playground had peeling paint
(Appendix, Photograph 20).

The wood portion of the tunnel has been sanded and painted

• A gate on a ramp leading to a parking lot was not adequately secured. The gate latch was
within children’s reach.

We have replaced the deck and ramp with a new structure with a new six foot gate.

• Two gates that led from the playground to an unsupervised field and open area, which
were accessible to the public, were not adequately secured. The gates’ latches were
within children’s reach. One gate also had a 6-inch gap that a child could fit through
(Appendix, Photograph 21).

The gate has been locked and straightened to close the gap.

• The playground had deep holes, presenting tripping hazards (Appendix, Photograph 22).

The holes were dug by children and filled in prior to the end of the audit.

Low Gap (visited April 2, 2010)
• The facility did not maintain a first aid manual.
                                                                                        Page 9 of 9


Although the manuals in the first aid kits were out dated, current, laminated first aid posters were
and continue to be posted in each classroom. Updated first aid manuals have been received and
will be at each site by September 1st, the first day of class for the new school year.

• An unfastened fire extinguisher in an unlocked wall-mounted case was within children’s
reach (Appendix, Photograph 23).A wall-mounted case that contained the central telephone
wiring system was unlocked and within children’s reach (Appendix, Photograph 24).

The extinguisher has been removed and telephone box has a hasp and padlock

• A storage shed on the playground was unlocked (Appendix, Photograph 25).

The lock is functional and will be kept locked when not in use by adults
